United States Department of Agriculture
Office of Inspector General




Agricultural Research Service's Contract
Closeout Process (Recovery Act)




                                          Audit Report 02703-0001-12
                                          August 2013
                                       Agricultural Research Service’s Contract Closeout
                                                    Process (Recovery Act)


                                                     Audit Report 02703-0001-12
What Were OIG’s
Objectives
To determine whether ARS
used effective and efficient
policies and other controls for
closing out Recovery Act-
funded contracts, and timely      OIG assessed the Agricultural Research
identified funds on physically
completed contracts that could    Service’s procedures for closing out
be put to better use.             Recovery Act contracts.
What OIG Reviewed
                                  What OIG Found
From the 35 Recovery Act
contracts ARS reported as         The Agricultural Research Service (ARS) used American Recovery
physically and                    and Reinvestment Act of 2009 (Recovery Act) funds to award 134
administratively complete as      contracts for repairs to critical systems at its research facilities.
of January 10, 2012, we           Through reviews of eight contracts, the Office of Inspector General
judgmentally selected a           (OIG) found that ARS timely identified funds on physically
sample of 8 contracts ($7         completed contracts that could be put to better use. ARS did not
million of $17 million), based    allow any funds to expire and obtained the proper releases from the
on administrative location and    contractors. Further, ARS took additional measures to ensure
dollar amounts.                   Recovery Act goals related to transparency and accountability
                                  were met.
What OIG Recommends
ARS should take actions           However, our review disclosed that ARS should strengthen the
related to its internal reviews   effectiveness and efficiency of its controls for closing out contracts.
of the procurement process        For example, ARS’ acquisition oversight did not ensure that it
and develop its guidance for      properly and timely implemented Federal-wide processes for
documenting that contracts are    evaluating contractor performance and sharing information among the
consistently and timely closed    Federal acquisition workforce. Also, it did not ensure it achieved
out. ARS also needs to            desired outcomes, such as the completion of contract closeout, within
complete its implementation       a 6-month period. This occurred because ARS lacked adequate
of a contractor evaluation        management oversight over the contract closeout process to ensure
database used Federal-wide,       that related contracting activities met intended goals. As a result, the
and strengthen its oversight of   Federal procurement workforce lacks necessary information about
the contract closeout process.    ARS’ contractors’ performance, which may result in the selection of a
ARS generally agreed with our     contractor that ARS identified as not performing satisfactorily. Also,
recommendations, and we           ARS cannot confirm that it always closes out contracts in a timely
accepted management decision      manner, and we cannot state that ARS has effectively taken needed
on all recommendations.           actions to improve its procurement processes.
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250


DATE:          August 14, 2013

AUDIT
NUMBER:        02703-0001-12

TO:            Edward B. Knipling
               Administrator
               Agricultural Research Service

ATTN:          Lisa A. Baldus
               Associate Deputy Administrator
               Administrative and Financial Management

FROM:          Gil H. Harden
               Assistant Inspector General for Audit

SUBJECT:       Agricultural Research Service’s Contract Closeout Process (Recovery Act)


This report presents the results of the subject audit. Your written response to the official draft,
dated July 3, 2013, is included in its entirety at the end of this report. Excerpts from this
response and the Office of Inspector General’s position are incorporated into the applicable
sections of the report. Based on your response, we were able to reach management decision on
all of the report’s recommendations. Therefore, no further response to this office is necessary.

In accordance with Departmental Regulation 1720-1, final action must be taken within 1 year of
each management decision to prevent being listed in the Department’s annual Agency Financial
Report. Please follow your agency’s internal procedures in forwarding final action
correspondence to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions. This report contains publically available
information and will be posted in its entirety to our website (http://www.usda.gov/oig) in the
near future.
Table of Contents

Background and Objectives ................................................................................... 1
Section 1: Controls Over the Contract Closeout Process................................... 4
Finding 1: ARS Has Not Adequately Overseen Contract Closeout ................... 4
         Recommendation 1 ........................................................................................7
         Recommendation 2 ........................................................................................7
         Recommendation 3 ........................................................................................8
Scope and Methodology .......................................................................................... 9
Abbreviations ........................................................................................................ 10
Agency's Response ................................................................................................ 11
Background and Objectives 
Background
The President signed the American Recovery and Reinvestment Act of 2009 (Recovery Act) into
law on February 17, 2009. The Department of Agriculture (USDA) received $28 billion in
Recovery Act funding for a number of program areas, including $176 million for the
Agricultural Research Service (ARS) to reduce a backlog of critical deferred maintenance
projects. ARS used its Recovery Act funds to award 134 construction and architect-engineer
contracts for repairs to critical systems, such as air conditioning, electrical, roofing, and
plumbing systems in its research facilities nationwide. ARS had until September 30, 2010, to
obligate its Recovery Act funds.

The procurement process through which Federal agencies acquire goods and services, such as the
Recovery Act-funded repairs, involves several roles and phases. When the Recovery Act was
signed, ARS had procurement personnel organized into two divisions. Personnel within ARS’
Facilities Division (FD) focused on construction and architect-engineer contracts. Facilities
Contracts Branch (FCB), a branch within FD, was responsible for conducting contract operations
in accordance with procurement policies, procedures, and guidance that ARS’ Acquisition and
Property Division (APD) administers. Operations must also comply with procurement
regulations issued in the Federal Acquisition Regulation (FAR). The Office of Federal
Procurement Policy (OFPP), a component of the Office of Management and Budget (OMB),
provides overall direction to shape the Government’s procurement regulations. USDA also
issues acquisition regulations to its component agencies as the Agriculture Acquisition
Regulation (AGAR).

The last phase of the procurement process is closeout, which occurs when a contract is physically
completed (e.g., when repairs are finished)1 and administrative procedures are completed.2
Federal agencies have specific closeout responsibilities. For instance, the FAR provides
timeframes for closing out contracts timely and states that contractor performance evaluations
shall be prepared.3 The construction and architect-engineer contracts we reviewed were firm-
fixed price contracts. The FAR states that firm-fixed price contracts should be closed within
6 months after the date on which the contracting officer receives evidence of physical
completion. The FAR also requires that contractor performance evaluations be prepared for
construction contracts totaling $650,000 or more, for architect-engineer service contracts
exceeding $30,000, and for any contract terminated for default, regardless of contract value.4




1
  The FAR states a contract is considered to be physically completed when the contractor has completed the required
deliveries and the Government has inspected and accepted the supplies or when the contractor has performed all
services and the Government has accepted those services. FAR 4.804-4(a)(1)(i), and 4(a)(1)(ii), June 30, 2011.
2
  Administrative closeout procedures include identification and deobligation of excess funds, final payment, and
completion of a contractor performance evaluation.
3
  FAR 4.804-1 and FAR, Subpart 42.1502, June 30, 2011 and October 29, 2010, respectively.
4
  FAR, Subpart 42.1502, October 29, 2010.

                                                                        AUDIT REPORT 02703-0001-12               1
The contractor performance evaluations that procurement personnel prepare during the closeout
process play a role when awarding Federal contracts.5 OMB has stated that making greater and
more effective use of contractor performance evaluations is essential to meeting Federal goals
related to contractor accountability and improvements to acquisition practices. 6 OMB
subsequently stated, in January 2011, that agencies were to review their existing past
performance reporting guidance to ensure that it required assessments that are clear and describe
the contractor’s performance in the narrative statement justifying the rating.7
To collect, maintain, and disseminate contractor performance evaluations, USDA used the
National Institutes of Health’s (NIH) Contractor Performance System until it was retired on
September 30, 2010. In May 2010, OMB mandated that the Contractor Performance Assessment
Reporting System (CPARS) would be the single past performance reporting
system Federal-wide.8 USDA’s Office of Procurement and Property Management (OPPM)
issued an AGAR update mandating that, as of October 1, 2010, CPARS would be the system
USDA used for reporting contractor performance and requiring all USDA agencies to implement
and use CPARS.9

ARS started a reorganization in July 2011. ARS management stated that a restructuring of its
administrative management units, completed February 12, 2012, was necessary in order to
provide effective services with fewer resources. They also stated that, over time, flat budgets
and an erosion of the purchasing power of agency resources resulted in a structure under which
people were “stretched too thin, often times with no back up for their critical functions.”10 Prior
to the reorganization, ARS Headquarters had two distinct procurement offices: (1) the Facilities
Contracts Branch (FCB) and (2) the Acquisition and Property Division (APD). There were
seven area offices under APD that performed contracting functions.11 The reorganization
consolidated FCB and APD’s area offices into three service centers: the East, West, and National
Capital Region Business Service Centers. ARS’ Administration and Financial Management
organization oversees the Business Service Centers. APD remains responsible for formulating
and implementing policies, procedures, and technical guidance for all acquisition and personal
property programs under the reorganized structure.




5
  The Federal Acquisition Streamlining Act (1994) required that a contractor's past performance be considered in
the source selection process of granting a Federal contract award.
6
  OMB Memorandum, Improving the Use of Contractor Performance Information, July 29, 2009.
7
  OMB Memorandum, Improving Contractor Past Performance Assessments: Summary of the Office of Federal
Procurement Policy’s Review, and Strategies for Improvement, January 21, 2011.
8
  The agencies that sponsor the past performance information retrieval system announced that in May 2010, OMB’s
OFPP determined that CPARS would be used as the single contractor performance reporting system, Federal-wide.
Past Performance Information Retrieval System (PPIRS) website, www.ppirs.gov, retrieved August 1, 2012. The
Naval Sea Logistics Center Portsmouth, New Hampshire, maintains this official U.S. Government website.
9
  AGAR Advisory Number 96, Contractor Performance Information and Contractor Performance Assessment
Reporting System (CPARS) Evaluations, September 17, 2010.
10
   Agricultural Research Service Memorandum, Transformation of Administrative Management in ARS,
May 20, 2011.
11
   Seven area offices were located in the Mid-South, Midwest, North Atlantic, North Plains, Pacific West, South
Atlantic, and South Plains Areas.

2     AUDIT REPORT 02703-0001-12
Objectives

Our objectives were to determine whether ARS (1) used effective and efficient policies,
procedures, practices, and controls for closing out Recovery Act-funded contracts, and (2) timely
identified funds on physically completed contracts that could be put to better use.




                                                             AUDIT REPORT 02703-0001-12        3
Section 1:  Controls Over the Contract Closeout Process 
Finding 1: ARS Has Not Adequately Overseen Contract Closeout
We found that ARS needs to strengthen its policies and processes for contract closeout to ensure
the agency proactively manages the acquisition process and provides assurance that the agency
complies with all applicable regulations. For example, ARS’ acquisition oversight did not
ensure that it properly and timely implemented Federal-wide processes for evaluating contractor
performance and sharing information among the Federal acquisition workforce. Also, it did not
ensure it achieved desired outcomes, such as the completion of contract closeout, within the
required 6-month period. This occurred because ARS lacked adequate management oversight
over the contract closeout process to ensure that contracting activities met their intended goals.
As a result, the Federal procurement workforce lacked the necessary information about the
performance of ARS’ contractors, which may have resulted in the selection of a contractor that
ARS identified as not performing satisfactorily. Also, ARS cannot confirm that it always closes
out contracts in a timely manner, and we cannot state that ARS has effectively taken needed
actions to improve its procurement processes.

OMB has defined management’s responsibilities for establishing and maintaining internal
control to achieve the objectives of effective and efficient operations and compliance with
applicable laws and regulations.12 OMB’s OFPP has further specified guidelines related to
internal controls over the acquisition function, which involves effectively managing the
acquisition process throughout contract performance and close-out, and monitoring and
providing oversight to achieve desired outcomes.13

We determined that ARS did not adequately manage the contract closeout process.

        ARS Could Not Show It Took Actions to Address an Internal Procurement Review

        In 2009, ARS conducted an internal review of contracting and purchasing operations in
        one of its procurement divisions, APD. Although ARS policy states that corrective
        action must be taken in response to any findings and recommendations identified during
        reviews it conducts periodically and on a rotating basis,14 we found that ARS could not
        provide evidence showing it took corrective action in response to a finding related to
        contract closeout. Specifically, the internal review identified contracts for which
        closeout had not been completed or was in process for an extended period of time.
        The report recommended that ARS “survey procurements that need closeout actions
        performed to identify those never completed or those in process for inordinately lengthy
        periods.” It is unclear whether ARS addressed this recommendation because it did not
        provide documentation to OIG to verify the status of the survey and if it took action.
        Without clarification regarding the corrective actions taken, we cannot state that



12
   OMB Circular A-123, Management’s Responsibility for Internal Control, December 2004.
13
   OMB OFPP, Conducting Acquisition Assessments under OMB Circular A-123, May 2008.
14
   AGAR 401.601(a); Procurement and Property Management Reviews, 210.1-ARS, June 13, 2006.

4     AUDIT REPORT 02703-0001-12
         ARS has effectively taken needed actions to improve deficiencies identified in its
         procurement processes.

         ARS Lacks Support That it Completed Closeouts Timely

         ARS did not ensure that contracting officers followed consistent procedures for
         documenting when a contract was physically complete, the date that establishes the start
         of the period within which contracting officers are to complete administrative closeout
         procedures. Although the FAR requires documentation in the files to constitute a
         complete history of contractual actions,15 the eight firm fixed-price contract files that we
         reviewed did not contain supporting documentation identifying the physical completion
         date. Without support for this date, ARS cannot confirm that it closed out these contracts
         in a timely manner (i.e., within the 6-month period stated in the FAR).16 OIG interviews
         disclosed that procurement personnel had different understandings of the closeout start
         date because personnel identified various stages of the process as the closeout start date.
         Personnel cited the final invoice date, final payment date, and a date on the final letter of
         Government acceptance. Depending on which date ARS personnel selected—to start
         and, subsequently, complete the closeout process—the closeout period for a contract
         could vary by up to 8 months.

         ARS stated that FCB, area offices, and ARS Headquarters followed different policies and
         procedures when documenting the closeout of a contract. Now that the reorganization is
         complete, APD is the only group within ARS issuing acquisition policies. According to
         ARS, APD is updating existing policies and procedures by reviewing, revising, and
         combining redundant information and removing information that is not necessary.
         However, APD has not issued an agencywide policy or procedure for closing out
         contracts. Therefore, ARS has not clarified for its personnel how they are to document
         physical completion in their contract files. By documenting physical completion in each
         contract file and establishing the start of the closeout process, ARS can better ensure that
         it timely completes the steps necessary to close out all contracts within consistent
         timeframes.

         ARS Did Not Use the Mandated Database for Contractor Performance Evaluations

         ARS did not implement CPARS, the Federal system for documenting contractor
         performance, in a timely manner. While OPPM directed USDA procurement offices to
         start using the contractor performance reporting system that OMB’s OFPP determined
         would be the single system used Federal-wide, ARS did not start using the database by



15
   Stated purposes for the files containing the records of all contractual actions include providing information for
reviews and investigations. FAR, Subpart 4.801, April 1, 2011.
16
   The FAR states that firm fixed-price contracts should be closed within 6 months after evidence of physical
completion is obtained. FAR 4.804-1(a)(2), June 30, 2011. ARS policy restates that contracts shall be closed out
within 6 months of physical completion, and defines physical completion as when all services called for under the
contract are rendered, delivered, and accepted. Facilities Division, Facilities Contracts Branch, Standard Operating
Procedures 02-003, November 29, 2011 (Revised May 12, 2008).

                                                                          AUDIT REPORT 02703-0001-12                   5
        the October 1, 2010, implementation date.17 Instead, ARS decided to delay its
        implementation of CPARS. Further, during the delay, ARS did not adequately document
        contractor performance information for later entry into CPARS. It did not document the
        required narrative comments to support its contractor performance evaluations for the six
        contracts we reviewed that required them.18

        ARS stated that it delayed its CPARS implementation because it was waiting for
        authorization to add and train additional personnel to use CPARS, and for the completion
        of a reorganization that was ultimately completed in February 2012. Six months after the
        required implementation date for CPARS, FD issued standard operating procedures on
        documenting contractor performance evaluations. In FD’s standard operating
        procedures, it stated all offices administering construction and architect-engineer
        contracts were to use an alternative means for reporting contractor performance until
        OPPM and/or APD issued official guidance.19 However, OIG determined that these
        procedures did not adequately address the information required for CPARS. Specifically,
        the procedures directed personnel to use forms that did not capture the information
        needed for CPARS, such as the inclusion of quality narratives in positive evaluations.20

        Further, the procedures specify that the forms are to be printed and maintained in the
        contract file. ARS officials explained that Federal procurement personnel needing a copy
        of a contractor's past performance evaluation had to contact ARS and request the
        documentation. However, the primary purpose of CPARS is to provide procurement
        officials across the Federal Government with easily accessible information on contractor
        performance to use as they issue contracts.

        At the start of our audit in March 2012, ARS had not begun to implement CPARS.
        During the course of the audit, ARS issued guidance, provided training, and began
        implementing CPARS. According to ARS officials, they are now populating CPARS,
        as required. However, while ARS has taken this first needed step, as of May 2013,
        ARS has not yet entered all of the required Recovery Act contract performance
        evaluations in CPARS.

        Given that CPARS is the official repository for contractor performance evaluations, 21
        ARS needs to complete the population of CPARS by entering the evaluations for all


17
   AGAR Advisory Number 96, September 17, 2010. The Past Performance Information Retrieval System website,
www.ppirs.gov, retrieved August 1, 2012. The Naval Sea Logistics Center in Portsmouth, NH maintains this
official U.S. Government website.
18
   We reviewed 8 of the 35 Recovery Act contracts ARS reported as physically and administratively complete as of
January 10, 2012. Of these eight, six were above the dollar threshold at which a contractor performance evaluation
was required.
19
   OPPM issued AGAR Advisory Number 96, September 17, 2010, requiring the use of CPARS as of October 1,
2010.
20
   DD Form 2626, Performance Evaluation (Construction), and DD Form 2631, Performance Evaluation (Architect-
Engineer).
21
   For construction contracts of $650,000 or more, and architect-engineer services contracts over $30,000, the FAR
requires agencies to record and maintain contractor performance information. FAR, Subpart 42.1502 & 42.1500,
October 29, 2010.

6     AUDIT REPORT 02703-0001-12
       required contracts. By inputting all of the appropriate evaluations, including contracts
       completed prior to its implementation of CPARS, ARS can provide Federal procurement
       personnel with the required access to valuable contractor performance information.

Taken together, these weaknesses demonstrate that ARS can improve the effectiveness of ARS’
contract closeout function. By conducting additional oversight, including reviews, ARS will be
able to verify it is completing the contract closeout process timely and consistently. ARS can
strengthen its management controls to ensure that it timely implements regulations, Federal
policies, processes, and procedures consistently throughout the organization, and better ensures
quality and compliance.

Recommendation 1
Document corrective actions taken for the 2009 internal review.

Agency Response
In its August 1, 2013, response, ARS stated pursuant to the 2009 internal review, by
April 30, 2014, it will survey procurements that require close-out actions performed to identify
those never completed or those in process for inordinately lengthy periods. In addition, ARS
will establish deadlines for completion, and monitor to completion.

OIG Position
We accept ARS’ management decision on this recommendation.

Recommendation 2
Develop and implement contract closeout guidance, specifying the event that will start the
contract closeout process and the requirements for contract file documentation.

Agency Response
In its August 1, 2013, response, ARS stated it will develop and implement contract closeout
guidance specifying the event that will start the contract closeout process and the requirements
for contract file documentation by February 28, 2014.

OIG Position
We accept ARS’ management decision on this recommendation.




                                                              AUDIT REPORT 02703-0001-12           7
Recommendation 3

Provide a timeline showing when the Contractor Performance Assessment Reporting System
(CPARS) will be fully implemented for all required contracts.

Agency Response
In its August 1, 2013, response, ARS stated all applicable Research, Education, and Economics
procurements (per Federal Acquisition Regulation Subpart 42.1502) from October 1, 2010 to
present have been entered into CPARS; agency personnel actively assess contracts in the system.

OIG Position
We accept ARS’ management decision on this recommendation.




8    AUDIT REPORT 02703-0001-12
Scope and Methodology 
To accomplish our audit objectives, we identified 134 ARS construction contracts and architect-
engineer contracts funded with the $176 million the Recovery Act appropriated to the agency to
reduce a backlog of critical, deferred maintenance projects. ARS used an Excel spreadsheet to
track the award and progress of its Recovery Act projects and to support data provided to the
Department on a quarterly basis. The scope of this review did not include verifying and
validating this data. From this spreadsheet, we determined that, as of January 10, 2012, ARS
reported that 35 of the 134 contracts were closed out.

From these 35, we judgmentally selected a sample of 8 contracts, based on the administrative
location and dollar amount. Specifically, we selected two administrative locations that had
closed both construction and architect-engineer contracts.22 From these two locations, which had
closed the most contracts, we selected the two highest-dollar construction contracts and the two
highest-dollar architect-engineer contracts. The 8 contracts we reviewed constituted 23 percent
of the 35 contracts, and accounted for approximately $7 million of $17 million (41 percent) of
the Recovery Act contracts ARS reported as closed out at the time.

Our fieldwork began in March 2012 and ended in May 2013. We performed fieldwork at ARS’
FD Headquarters office in Beltsville, Maryland, and the North Plains Area Office in Ft. Collins,
Colorado.

To accomplish our objectives we:

     ·   Reviewed applicable laws, regulations, agency procedures and guidance, Governmental
         Accountability Office reports, and prior OIG reports.
     ·   Interviewed ARS procurement personnel involved in the contract closeout process,
         including personnel responsible for monitoring and oversight, contracting officers,
         contracting officer representatives, and procurement technicians.
     ·   For the eight selected contracts, we reviewed the contract files, which included closeout
         documentation, such as contract completion statements, contractor performance
         evaluations, contract closeout determination letters, contractor’s release statements, and
         financial documents.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform our audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence we obtained provides reasonable
basis for our findings based on our audit objectives.




22
  When our fieldwork began, ARS had nine procurement offices, including seven area offices located nationwide,
and two divisional offices in Beltsville, Maryland.

                                                                       AUDIT REPORT 02703-0001-12                9
Abbreviations 
AGAR……………. Agriculture Acquisition Regulation
APD……………….Acquisition and Property Division
ARS……………….Agricultural Research Service
CPARS……………Contractor Performance Assessment Reporting System
FAR……………….Federal Acquisition Regulation
FCB……………….Facilities Contract Branch
FD………………... Facilities Division
NIH……………….National Institutes of Health
OFPP……………...Office of Federal Procurement Policy
OIG……………….Office of Inspector General
OMB……………...Office of Management and Budget
OPPM…………….Office of Procurement and Property Management
Recovery Act……..American Recovery and Reinvestment Act of 2009
USDA…………….Department of Agriculture




 




10   AUDIT REPORT 02703-0001-12
Agency's Response 




              USDA’S
  AGRICULTURAL RESEARCH SERVICE’S 
     RESPONSE TO AUDIT REPORT 




                     AUDIT REPORT 02703-0001-12   11
August 1, 2013



SUBJECT:       Management’s Response to Recommendations in Audit Report 02703-0001-12-
               Agricultural Research Service’s Contract Closeout Process

       TO:     Gil H. Harden
               Assistant Inspector General for Audit
               Office of Inspector General

               Jon M. Holladay
               Deputy Chief Financial Officer
               Office of the Chief Financial Officer

   FROM:      Lisa A. Baldus /s/
              Associate Deputy Administrator


The Agricultural Research Service (ARS) provides the following response to audit
Recommendations 1, 2, and 3 in Audit Report 02703-0001-12- Agricultural Research Service’s
Contract Closeout Process

Finding 1: ARS Has Not Adequately Overseen Contract Closeout

Recommendation 1
Document corrective actions taken for the 2009 internal review.

ARS Response:
Pursuant to the 2009 internal review, by April 30, 2014, ARS will survey procurements that
require close-out actions performed to identify those never completed or those in process for
inordinately lengthy periods. In addition, ARS will establish deadlines for completing and
monitor to completion.

Recommendation 2
Develop and implement contract closeout guidance, specifying the event that will start the
contract closeout process and the requirements for contract file documentation.

ARS Response:
ARS will develop and implement contract closeout guidance specifying the event that will start
the contract closeout process and the requirements for contract file documentation by
February 28, 2014.
Gil H. Harden, et al.                                                         2

Recommendation 3
Provide a timeline showing when the Contractor Performance Assessment Reporting System
(CPARS) will be fully implemented for all required contracts.

ARS Response:
All applicable Research, Education, and Economics procurements (per Federal Acquisition
Regulation Subpart 42.1502) from October 1, 2010 to present have been entered into CPARS;
agency personnel actively assess contracts in the system.

cc:
M. Barnes, APD
L. Williams, FMD
 To learn more about OIG, visit our website at
 www.usda.gov/oig/index.htm
 How To Report Suspected Wrongdoing in USDA Programs

 Fraud, Waste and Abuse
 e-mail: USDA.HOTLINE@oig.usda.gov
 phone: 800-424-9121
 fax: 202-690-2474

 Bribes or Gratuities
 202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on
the basis of race, color, national origin, age, disability, and where applicable, sex (including gender identity
and expression), marital status, familial status, parental status, religion, sexual orientation, political beliefs,
genetic information, reprisal, or because all or part of an individual’s income is derived from any public
assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should
contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD).
To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call
toll-free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or
(800) 845-6136 (Spanish Federal relay).USDA is an equal opportunity provider and employer.
